                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




         This investigation of an NSF award1 was opened pursuant to a proactive review of cost sharing.
         The investigation, which included review of program records, financial documents, and a site
         visit to conduct interviews with ~ n i v e r s i t gofficials, resulted in finding no evidence that any
         violations had occurred. Therefore, no further investigative efforts are required in this case.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)

                          &   1   -   .   *                 ".--
